               Safe and Drug-Free Schools:
              Increasing Accountability and
                  Preserving Flexibility




                       FINAL AUDIT REPORT




                               Audit Control Number 03-80001
                                       December 1998




Our mission is to promote the efficient                U.S. Department of Education
and effective use of taxpayer dollars                  Office of Inspector General
in support of American education                       Philadelphia, PA
                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           1

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     4

         Federal and State Application Review Process . . . . . . . . . . . . . . . . . .                     5

                  Federal Application Review Process Complies with Statute                             ...    5

                  States Have Developed, with ED’s Technical Assistance,
                  Outcome-based Performance Indicators . . . . . . . . . . . . . . . . . .                    6

                  State Application Review Process Needs Improvement . . . . . . .                            6

                  More Technical Assistance/Guidance Needed on
                  Outcome-based Performance Indicators . . . . . . . . . . . . . . . . .                      8

         Distribution of Funds to Students . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          10

                  Allocations and Expenditures . . . . . . . . . . . . . . . . . . . . . . . . . . .          10

                           Figure 1: How Funding Reaches States and LEAs,
                           1996-97 School Year . . . . . . . . . . . . . . . . . . . . . . . . . . . .        11

                  Administrative Burden . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      12

                  LEAS are Leveraging SDFS Money                       ....................                  13

                           Graph A: Visual Representation Of LEAs By
                           Total SDFS Allocations In The 4 States Visited . . . . . . .                      14

                           Graph B: Visual Representation Of LEAs By Sizes In The
                           4 States Visited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         Some LEAs Did Not Plan their SDFS Activities to Address
         their Needs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         LEAs Should Be Accountable for Greatest Need Funding                               . . . . . . . . . 20
                  States are Properly Allocating Greatest Need Funds                            ......       20

                  LEAs are not Required to Plan or Report
                  Separately for Greatest Need Funds . . . . . . . . . . . . . . . . . . .                   21

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        23

         Inappropriate Use of SDFS Money for Desegregation Training                               ....       23

         Sharing Best Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      24

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  26

STATEMENT ON MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . .                                 27

APPENDICES

         Appendix A: Summary Chart for States and LEAs Visited . . . . . . . . .                             28

         Appendix B: Summary Chart of States and LEA Activities
                     & Services Funded by SDFS Program. . . . . . . . . . . . . . .                          29

ATTACHMENT 1: Department’s and States’ Responses to
              the Draft Report. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              30
                          EXECUTIVE SUMMARY


State and local educational agencies (LEAs) need more guidance or technical assistance
to maximize the impact of their programs under the Safe and Drug Free Schools and
Communities Act (SDFSCA). This report summarizes our review at the Federal program
office, four States and 26 local educational agencies (LEAs). Our review found that:

(1) The Federal and States' application review process generally complied with the Act.

The Department’s Safe and Drug Free Schools (SDFS) application process improved from
the interim program year 1995/96 to the year under review 1996/97. These improvements
resulted in stronger management controls during the application review process and
additional technical assistance to States. As a result, States’ applications approved by ED
included outcome-based performance indicators for the SDFS program. Outcome-based
performance indicators (e.g., the number of incidents of school-related gang violence) are
used to indicate progress toward achievement of the mission and program objectives.
ED’s application review process, including technical assistance and guidance, required
States to develop outcome-based performance indicators that could be used to evaluate
their programs on a statewide basis.

Although the States we reviewed have a process for reviewing LEAs' applications, the
process needs improvement. States have not assured that LEAs have outcome-based
performance indicators. In three of the four States reviewed, the performance indicators
developed by most LEAs were output-based. Output-based performance indicators (e.g.,
by June 1997, all staff members will have completed the Conflict Management Training
Program.) show the quantity of work activity completed and do not measure the
effectiveness of the program. These three States said that ED needed to provide more
technical assistance on outcome-based performance indicators. The Department has
developed the Principles of Effectiveness, which became effective July 1, 1998. These
principles provide a framework to help SDFS State and local grant funds recipients design,
implement, and evaluate programs in order to use funds as efficiently and effectively as
possible. In June 1998, the Department held a national conference on the principles and
is planning additional technical assistance.

(2) Funds were properly distributed to States and LEAs.

The Federal program office distributed SDFS grants to the four States we visited in
accordance with the statute. The four States were also allocating grants to LEAs in
compliance with the law. Expenditures we reviewed at States and LEAs visited were
supported and consistent with the applications and program objectives.



                                                                                   Page -1-
Although all districts incurred administrative expenses in operating the program, large and
small districts differed in the amount of administrative burden associated with their SDFS
program. Requiring districts to submit applications each year added to the burden. In spite
of the burden there was a considerable effort by the LEAs to have comprehensive SDFS
programs. Many were using local funds to supplement their SDFS programs.

(3) Some LEAs did not plan their SDFS activities to address their needs.

One State visited did not require the LEAs to prepare a comprehensive plan for drug and
violence prevention, including a description of how the SDFS funds would be spent to meet
its measurable goals and objectives. As a result, LEAs visited that did not have a
comprehensive plan appeared to be unclear as to the direction of the SDFS program and
the best use of the funds.

(4) LEAs should be accountable for greatest need funding.

The States we reviewed were properly allocating greatest need funds to LEAs. However,
the Act does not contain provisions which are specific as to program effectiveness and
greatest need. The four States reviewed did not provide any guidance to the LEAs as to
how funds were to be spent. LEAs generally did not distinguish their greatest need funds
from regular SDFS funds. Greatest need funds were used to expand the services that
were provided by using the regular SDFS funds.

Among the recommendations we are making are, the Assistant Secretary of the Office of
Elementary and Secondary Education (OESE) should:

Ø      Continue to provide technical assistance/guidance to States and LEAs, building on
       the assistance provided by the Principles of Effectiveness;

Ù      Issue guidance to clarify that States can accept multiple-year applications from
       LEAs;

Ú      Consider during deliberations on reauthorization changes to the Act to incorporate
       provisions that will require LEAs to include in their application, a comprehensive
       plan with a detailed description of SDFS program services and activities. This plan
       should be aligned with the LEAs’ measurable goals and objectives and include
       milestones; and

Û      Consider during deliberations on reauthorization changes to the Act to clarify that
       States can award greatest need funds for the same multi-year period as regular
       SDFS funds;

Ü      Consider during deliberations on reauthorization changes to the Act to permit




                                                                                   Page -2-
      States to consider LEAs' planned activities and the effectiveness of their completed
      activities, as a criterion in awarding greatest need; and

Ý     Consider during deliberations on reauthorization changes to the Act to permit
      States to consider the performance of LEAs receiving greatest need funds as a
      criterion for continued funding.


Department’s Comments

On November 9, 1998, the Department provided a written response to our draft audit
report. The Department believes that the report provided valuable information and insight
about the implementation of the Safe and Drug Free Schools State Grants Program that
is consistent with evaluation data, program reports, monitoring results, and other
information collected since the program was reauthorized in 1994.

The Department generally agreed with many of the findings and recommendations. They
identified concerns regarding some recommendations made in the draft audit report. The
Department believes that the Act already permits the States and LEAs to implement some
of these recommended actions.


States’ Comments

New Jersey, Texas, and New York generally concurred with all the findings and
recommendations cited in the report.          The SEAs responded that while the
recommendations are directed to the Assistant Secretary of OESE, they will take the action
necessary to implement many of the recommendations. Alabama submitted no written
comments.


OIG Response

We have carefully considered the Department’s and States’ comments on the draft report
and have made some revisions as a result. This final report includes after each finding a
summary of the Department’s and States’ comments (a copy of responses are contained
in Attachment 1). We have addressed and responded to each comment. We believe that
many of the recommendations should remain unchanged from the draft version. The Act
needs more clarification regarding provisions of the program. The uncertainty of these
provisions was evident per the draft report comments received from the SEAs. It is the
OIG’s opinion that the Department needs to clarify these provisions and encourage their
use.



                                                                                  Page -3-
                               AUDIT RESULTS

The Safe and Drug-Free Schools and Communities Act (SDFSCA) State and Local Grants
Program, authorized by the Elementary and Secondary Education Act (ESEA) (Title IV,
Sections 4111-4116, 20 U.S.C. 7111-7116), is a key part of the Federal Government's
effort to encourage the creation of safe, disciplined, and drug-free schools.

A primary aim of the 1994 reauthorization of the ESEA was to provide recipients of funds
with expanded flexibility to design and implement programs that meet State and local
needs and support education reform strategies. It was intended that the increased
flexibility would be matched by improved accountability for achieving measurable results.

This audit provides information to the Department of Education (ED) and Congress for the
reauthorization of SDFSCA in 1999.



 The objectives of our audit were:           Our fieldwork disclosed that:

 (1)   To review the States' and LEAs'       States' and LEAs' processes for
       processes for developing              developing measurable goals and
       measurable goals and objectives       objectives generally complied with the
       and to determine if it meets          SDFSCA. However, three of the four
       Federal statutes;                     States reviewed did not assure that their
                                             LEAs had outcome-based performance
                                             indicators.

 (2)   To determine how SDFS funds are       Funds were allocated to the States and
       allocated from States to LEAs and     LEAs we reviewed in accordance with the
       schools and if expenditures are       statutes and expenditures were
       supported and consistent with the     supported and consistent with the plan.
       plan;                                 However, some LEAs did not plan their
                                             SDFS activities to address their needs.




                                                                                 Page -4-
 (3)    To determine if there is an            There was not an administrative burden
        administrative burden on State         on States and larger local districts
        and local districts applying for and   applying for and operating the program.
        operating the program and if it can    Smaller LEAs indicated the program was
        be reduced; and                        a burden and had to use local funds to
                                               supplement these expenses. States and
                                               LEAs had suggestions for reducing these
                                               expenses.


 (4)    To ensure that the States' greatest    States' greatest need methodologies
        need methodologies are                 were consistent with program objectives,
        consistent with program                but LEAs should be more accountable for
        objectives.                            the results of the greatest need funding
                                               received.


As a continuing effort to improve accountability, ED developed the Principles of
Effectiveness which became effective July 1, 1998. These principles govern recipients'
use of school year 1998-99 and future years' funds received under the SDFS program.




               Federal and State Application Review Process



                                The Department’s SDFS application process improved from
   Federal Application          the interim program year 1995/96 to the year under review
    Review Process              1996/97.     These improvements resulted in stronger
     Complies with              management controls during the application review process
        Statute                 and additional technical assistance to States. In 1995/96,
                                the first year under reauthorization, the Department
                                accepted interim applications from States that were subject
to minimal review. The following year, the Department increased its controls over the
application review process and required States to submit a more comprehensive
application. This application increased accountability for program funds by requiring States
to provide a needs assessment, measurable goals and objectives, and performance
measures. The application review process included a technical review by the Office of
Elementary and Secondary Education's (OESE) regional service team, and a peer review
by State program officials and members of ED's program office. Below are the results of



                                                                                    Page -5-
the application review for the four States visited:

‘       The application for the State of New York was approved without conditions for the
        period of the program authorization (scheduled to expire September 1999); and

‘       Three States’ (New Jersey, Alabama & Texas) applications required additional
        information. As a result, ED granted conditional approval for 1996/97 based on an
        agreement for each State to provide additional information. Before the next fiscal
        year grant, the Federal program office received the required information and final
        approval was given for the period of the program authorization.

During the 1996/97 period, the Department’s SDFS program officials increased their
technical assistance to all States. ED issued guidance and the regional service teams
handled questions and problems by telephone. The program officials also provided on-site
technical assistance for States with major deficiencies in their applications. The four
States we visited did not have major deficiencies.

As a result of the increased technical assistance by ED during the application review
process, all States’ applications received unconditional approval and were deemed as
being in compliance with the requirements of the ED statute.

                               Applications submitted by the four States visited and
        States Have            approved by ED, included outcome-based performance
    Developed, with ED’s       indicators for the SDFS program.         Examples of these
    Technical Assistance,      indicators for the States we visited included:
      Outcome-based
        Performance            ‘      By October, 1998, there will be a 5 percent decrease
         Indicators                   in juvenile arrests due to violent crimes and drug
                                      sales;

‘       By 2000, there will be a reduction in LEA-reported substance abuse incidents by
        comparing the 30 day use rate of cigarettes, alcohol and marijuana reported at
        grades 10 and 12 in 1996 against 1998; and

‘       An increase in the number of schools reporting safe and drug free environments
        through a reduction in the number of school crimes, weapons incidents, violence,
        and discipline problems, including school suspensions.

                              Although the States we reviewed had a process for
     State Application
                              reviewing LEA applications, the process needs
     Review Process           improvement. The Government Performance and Results
    Needs Improvement         Act of 1993 emphasizes the need for recipients of Federal
                              funds to measure performance. Three out of four States



                                                                                  Page -6-
reviewed (New Jersey, Alabama, and New York) did not assure that their LEAs have
outcome-based performance indicators. In these three States, the performance indicators
developed by most LEAs were output-based, and did not measure the effectiveness of the
program. The Act does not require LEAs to have output-based performance indicators.
Texas did require its LEAs to have outcome-based indicators that were developed by the
State educational agency (SEA). Examples of output-based performance indicators for
LEAs in the States we visited were:

‘      Instruction will be provided to students in grades K-12 on building self-esteem, and
       the harmful effects of drugs;

‘      By June 1997, all staff members will have completed the Conflict Management
       Training Program; and

‘      At least 15 students and/or faculty will participate in Basic Training in
       Mediation/Conflict Resolution Skills.

We noted that LEAs that did not have outcome-based performance indicators were already
collecting outcome-based type information for other purposes. This information could have
been used at no apparent, additional cost for developing SDFS performance indicators.
For example, school report cards are required by many States, and include data on
incidents of drugs, violence, and school suspensions that could be used for outcome-
based measurement data.

Texas required its LEAs to include specific, State developed, outcome-based performance
indicators in their applications. The applications for the six LEAs we visited in that State
all had these indicators. These six LEAs said they were using these indicators to evaluate
their programs. The following are examples of these State-required, outcome-based
indicators:

‘      Number of incidents of students referred for disciplinary action related to
       possession, sale or use of tobacco, alcohol or other drugs;

‘      Number of incidents of school-related gang violence; and

‘      Number of assaults against students.




                                                                                    Page -7-
                              Three of the four States visited (New Jersey, Alabama, and
       More Technical         New York) said ED needs to provide more technical
    Assistance/Guidance       assistance on outcome-based performance indicators.
    Needed on Outcome-        Alabama said it had accepted applications from LEAs with
     based Performance        either no performance indicators or inadequate indicators
         Indicators           because it wasn’t sure what ED expected LEA applications
                              to include.

One LEA we visited said that ED should provide States and LEAs with the expected results
of the program, more training in ways to evaluate the program, and more assistance in
general. Another LEA said they would welcome more technical assistance on performance
indicators.

Subsequent to our visits to the States and LEAs, ED issued the Principles of Effectiveness,
which provides significant guidance on outcome-based performance indicators. These
principles, which became effective July 1, 1998, govern recipients' use of school year
1998-99 and future years' funds received under the SDFS program. The Department held
a national conference on the principles in June 1998, and is planning additional technical
assistance.


Recommendations

We recommend that the Assistant Secretary of OESE:

Ø      Consider during deliberations on reauthorization, changes to the Act to incorporate
       provisions that will require States to include in their LEA application outcome-based
       performance indicators;

Ù      Require States to have LEAs report on their actual performance against their
       performance indicators; and

Ú      Continue to provide technical assistance/guidance to States and LEAs, building on
       the assistance provided by the Principles of Effectiveness.


Department’s Comments

The Department commented that the SDFSCA already required local educational agencies
(LEAs) to include measurable goals in their applications for SDFSCA funds (Section
4115(b)(2)(B) of the SDFSCA). However, the current law does not require the applications




                                                                                    Page -8-
to include outcome-based performance indicators. They stated that, while the Department
encourages State educational agencies (SEAs) to have their LEAs include outcome-based
performance goals in applications for SDFSCA funds, the Department does not have the
authority to require their inclusion.

The Department also stated that the SDFSCA requires SEAs to report to the Secretary on
the outcomes of LEA programs and provide an assessment of their effectiveness (Section
4117(b)(1) of the SDFSCA).


States’ Comments

New Jersey’s comments in reference to recommendations #1, #2, and #3 of this finding
advised that they directed districts to indicate, for each objective, the target population and
the outcome to be achieved (performance or behavior indicator(s)) rather than process
indicator(s). This SEA’s review of approved applications revealed that not all districts (with
approved applications) had met this standard for Title IV. In its modification of the IASA
application (to be completed February 1), the SEA will reinforce the need for district-level
performance measures to gauge the attainment of objectives. It will continue to collect
"outcome-based type information for other purposes.” While the SEA indicated that they
concurred with our recommendation #3, they added that the U.S. Department of Education
should provide more technical assistance which focuses on the Principles of Effectiveness.

New York agreed with all three recommendations. They stated that while all three
recommendations were directed to the Assistant Secretary of OESE, they would do the
following:

9      Revise its future LEA application requirements to include outcome-based
       performance indicators within its overall monitoring effort and consistent with the
       Principles of Effectiveness rule which became effective July 1, 1998;

9      Strengthen its LEA reporting form for the 1998-99 program year so that LEAs can
       report on their actual performance as measured against their performance
       indicators; and

9      Planning a number of regional workshops in February and March 1999 through our
       regional Comprehensive School Health and Wellness Centers to provide LEAs with
       the tools necessary to effectively comply with the Principles of Effectiveness,
       including those related to measurable goals and objectives (performance
       indicators).

Texas made no comments for recommendations #1 and #2. Regarding recommendation
#3, they commented that technical assistance/guidance to States and LEAs on the
Principles of Effectiveness is essential. Specifically, technical assistance/guidance is



                                                                                       Page -9-
needed regarding Principle 3, implementing activities based on research and evaluation.

Alabama submitted no written comments.


OIG Response

Based on the Department's response, we changed part of recommendation #1 to advise
the Assistant Secretary of OESE to consider during reauthorization that the SDFS Program
Office be given the authority to require LEAs to include outcome based performance
indicators in their application.

Although the Act requires SEAs to report the outcome of LEA programs, we believe that
the process still needs improvement. Many LEAs are reporting on output-based
performance indicators that do not measure program performance. Our audit report
disclosed that three of the four States we visited were not always capturing outcome-
based data from LEAs and as a result may not be measuring the LEAs’ actual
performance. Requiring LEAs to report outcome-based performance measures will
provide some assurance that actual performance is reported.




                       Distribution of Funds to Students



                              The Federal program office distributed SDFS grants to the
     Allocations and          States we visited in accordance with the statute. Because
      Expenditures            the scope of our audit did not include the SDFS Governors'
                              Program or SDFS legislated set asides, we did not perform
                              field work pertaining to these funds.

As previously noted, we visited four States (New Jersey, Texas, Alabama, and New York)
and reviewed their grant allocation processes to LEAs. The four States visited, allocated
91 percent of the SDFS program funds to LEAs in accordance with the statute. The
remaining nine percent consisted of five percent for State level programs and four percent
for SEA administrative expenditures. These expenditures were supported, consistent with
the State application plan, and allowable under the SDFS grant. Figure 1 (next page)
shows how funding reached States and LEAs during the 1996-97 school year. Grants are
allocated to States and LEAs based on the number of students.


                                                                                 Page -10-
Figure 1: How Funding Reaches States and LEAs, 1996-97 School Year


                       The Congress
                       Authorizes and
                       Appropriates
                       $465,981,000

                                                                                State
                                                                     4%     Administration
                                                       State                 $13,768,941
 Governors'             U.S. Department              Educational
  Offices                 of Education                Agencies
 $86,055,884               Allocates                $344,223,534               State Level
                                                                     5%         Activities
                                                             91%              $17,211,177

                 Legislated                        $313,243,416
                 Set Asides
                 $35,701,582

                                            70%               30% to Select
                                         Based on             LEAs Based on
                                         Enrollment              Need
                                        $219,270,391          $93,973,025

                                                 Local Educational
                                                     Agencies




All four States visited were properly distributing the per capita funds and their methodology
to determine greatest need funding distribution was reasonable. (The greatest need
funding is discussed in more detail on page 20.)

For the 26 LEAs visited, we reviewed a sample of expenditures for the school year 1996/97
and found that these expenditures were properly supported, consistent with the program
objectives, and allowable under the SDFS grant. However, we identified one case where
an LEA budgeted $125,000 SDFS greatest needs funds during school year 1997/98 (funds
were not within the scope of the audit period) for court-ordered desegregation training
which was not in the LEA’s plan. We recommended that the LEA reconsider this use of
SDFS funds and discuss the matter with the SEA. (See Other Matters on page 23 for
details.)

                                                                                    Page -11-
We found that LEAs directed a significant percentage of SDFS funds for student services.
The 26 LEAs visited, reported on average 84 percent of program expenditures were for
direct student services and the other 16 percent were for costs such as program
evaluation; preparation of applications; and administration. Generally, expenditures for the
LEAs visited were as follows:

‘      Small districts (SDFS funds < $10,000) expended funds primarily for prevention
       programs. These districts provided very little program services for intervention.
       Students were often referred to outside agencies for counseling.

‘      Medium districts (SDFS funds $10,000-$200,000) expended funds for prevention
       program and salaries for administration. These districts provided some program
       funds for intervention services.

‘      Large districts (SDFS funds > $200,000) maintained program offices. The SDFS
       grants paid for prevention programs and administrative costs. These districts also
       expended program dollars for intervention and counseling services.

A summary of SDFS activities at the 26 LEAs visited is included in Appendix B.


                                Although all districts visited incurred administrative expenses
 Administrative Burden          in operating the program, large and small districts differed in
                                the amount of administrative burden associated with their
                                SDFS program. Eleven of the districts visited, received over
$10,000 in total SDFS dollars. These districts stated that program administration was not
a burden and that they had received sufficient Federal dollars to pay for program
administration. Eight LEAs, which received less than $10,000, believed that program
administration was a burden but it was not excessive. One LEA coordinator said that drug
use and violence in the schools was such an important issue that they needed all available
resources to have a SDFS program. All 12 of the small LEAs visited, used local funds to
supplement program expenses for implementation and operation of their SDFS programs.
Smaller districts visited, with grants less than $6,000, used their SDFS funds to provide
direct services to students. Here are a few examples of expenses supplemented by these
districts: coordinators' salaries; researching for program activities; and paying substitute
teachers during meetings. These districts did not track the added expenditures that were
being funded with local funds.

In order to reduce administrative burden, some smaller districts joined a consortium of
LEAs. These districts received limited Federal program funds, and were motivated to save
administrative costs and increase their spending power. We found that two districts
received grants less than $350; and by joining a consortium, obtained services valued in
excess of $900. While these districts reduced their burden, they also appeared to receive


                                                                                     Page -12-
more services for the money they spent. Other small districts indicated that they did not
join consortia because it would have limited their flexibility to select program activities.

To reduce the burden, one LEA suggested that the Department allow one application for
the entire period of the reauthorization, such as required for the States. This would help
reduce the burden for LEAs to prepare and States to review applications. It would also
encourage LEAs that do not apply for SDFS grants because of the burden, to apply.


                            There is a considerable effort by the LEAs to have
  LEAs are Leveraging       comprehensive drug and violence prevention programs.
     SDFS Money             Many LEAs used local funds to supplement their programs.
                            Twelve small LEAs and one large LEA visited, used local
                            funds to provide more comprehensive programs. Most
medium and large LEAs visited, did not require local funds for program operation. With
61% of the LEAs in States visited, receiving less than $10,000, it is important that they
make the most effective use of SDFS funds and apply them towards direct student
activities.

Graph A (next page) gives a visual representation of the percentages of LEAs for States
visited by total SDFS allocations. Graph B (next page) gives a visual representation of
LEAs by size in the four States we visited. In comparing these two graphs, it should be
noted that small districts received only nine percent of the total allocation dollars; however,
they accounted for 61 percent of the LEAs receiving SDFS funds. Large districts received
47 percent of the total allocation dollars and accounted for only 2 percent of the LEAs
receiving SDFS funds. Both charts include the entire universe of LEAs in the States
visited, not just the 26 LEAs we visited. These charts do not include the funds allocated
to the SDFS Governors' Program or set aside as SDFS legislated funds.




                                                                                      Page -13-
      Graph A: Visual Representation of LEAs By Total
          SDFS Allocations in the 4 States Visited

Large-Sized
   LEAs                                   Small-Sized
$31,562,950                                  LEAs
   (47%)                                   $6,197,527
                                              (9%)



                                                Medium-
                                               Sized LEAs
                                               $29,983,758
                                                  (44%)




          Small-sized LEAs  - SDFS funds < $10,000
          Medium-sized LEAs - SDFS funds $10,000-$200,000
          Large-sized LEAs  - SDFS funds >$200,000




      Graph B: Visual Representation of LEAs By Sizes
                   in the 4 States Visited


                                       Small-Sized
                                         LEAS
                                          61%
  Large-
Sized LEAs
    2%

                                            Medium-
                                           Sized LEAs
                                               37%




                                                             Page -14-
Recommendation

We recommend that the Assistant Secretary of OESE:

Ø     Issue guidance to clarify that States can accept multiple-year applications from
      LEAs.


Department’s Comments

The Department responded that the SDFSCA currently permits SEAs to determine how
frequently LEAs must apply to receive SDFSCA funds (Section 4115(a)(l) of the SDFSCA).


States’ Comments

New Jersey did not comment on this recommendation.

New York agreed with the recommendation, stating that multiple-year applications would
reduce both the LEA and SEA administrative burden.

Texas commented that multiple-year applications can improve planning and coordination.
They indicated that this should be an option available to States.

Alabama submitted no written comments.


OIG Response

While the Act may permit SEAs to determine how frequently LEAs can apply to receive
SDFS funds, we believe that this provision is unclear and needs clarification. The
uncertainty of this provision was evident in the draft report comments received from the
SEAs. It is the OIG’s opinion that the Department needs to issue guidance to clarify this
provision and encourage its use.




                                                                                Page -15-
               Some LEAs Did Not Plan their SDFS Activities
                        to Address their Needs



Texas did not require the LEAs to prepare a comprehensive plan for drug and violence
prevention. This plan should be part of the LEA application and indicate how the LEA is
going to meet its measurable goals and objectives, including milestones.

The requirements for LEAs to prepare a plan are detailed in 34 CFR Section 4115 (b) (2).
It states that the local application shall contain a detailed explanation of the LEA’s
comprehensive plan for drug and violence prevention, which shall include a description of:

‘      How the plan will be coordinated with programs under the ESEA, the Goals 2000:
       Educate America Act, and other Acts as appropriate, in accordance with the
       provisions of section 14306;

‘      The LEA’s measurable goals for drug and violence prevention, and a description of
       how such agencies will assess and publicly report progress toward attaining these
       goals;

‘      How the LEA will use its funds under this subpart;

‘      How the LEA will coordinate such agency’s programs and projects with community-
       wide efforts to achieve such agency’s goals for drug and violence prevention; and

‘      How the LEA will coordinate such agency’s programs and projects with other
       Federal, State, and local programs for drug-abuse prevention, including health
       programs.

Texas required LEAs to submit a program specific application. The program-specific
application required LEAs to include a general description of their program. Although the
State's SDFS coordinator believed that the program description met all the requirements
of the statute, we do not agree. The information gathered in this format was important to
meeting some of the application requirements, but in our opinion it is not specific enough
to complete the planning process. A clear program strategy is essential for the LEA to
meet its goals. Other States visited, required LEAs to provide more specific plans of
activities in their applications. We believe that requiring LEAs to provide this information
will facilitate program implementation and ensure that Federal, State, and LEA goals are
being addressed.



                                                                                   Page -16-
The review disclosed that Texas LEAs did not include a plan of program services and
activities, aligned with the districts’ measurable goals and objectives in their applications.
LEAs were merely checking off boxes on an application form. Of the six LEAs visited, four
appeared to be unclear as to the direction of the program and the best use of the funds.
These LEAs received the grant funds and then selected activities on short notice; and not
as part of an overall plan.

The following examples were noted:

‘      The coordinator at one LEA asked us if it was appropriate to put on a country
       western show for students. The coordinator was unsure of how this activity fit in
       with the program goals and objectives. This district received $103,300 in SDFS
       funds and $181,004 in greatest need funds.

‘      The same district established a goal to reduce violence and their needs analysis
       indicated they had a moderate disciplinary problem. The district’s application also
       identified violence as a concern. However, the coordinator stated that the SDFS
       activities primarily focused on drugs and alcohol prevention. We believe that
       preparing a comprehensive plan may have directed more of the program dollars
       toward violence prevention activities.

‘      Another LEA visited, primarily focused the $73,387 in SDFS funds it received on
       drug prevention. Fifteen (15) of this LEA's 17 SDFS activities were for drug
       prevention and only two were for violence prevention. We believe the district should
       have directed more attention to violence prevention because (a) the district’s
       evaluation report showed that 72 percent of reported incidents for school year
       1996/97 were related to violence; (b) the district’s needs assessment indicated a
       moderate problem with discipline; and (c) the district application established a goal
       to reduce fear and acts of violence in the schools.

Although our audit objectives did not focus on the effectiveness of the LEA’s SDFS
program services and activities, we believe developing and implementing a comprehensive
drug use and violence prevention plan is essential to the success of the program. The risk
of having a program without a comprehensive plan is that LEAs could be targeting limited
SDFS resources into program services and activities that may not meet the district’s goals
and objectives. The Act should be more specific and require that LEAs have a
comprehensive plan that includes program services and activities that are aligned with their
goals, objectives, and realistic milestones. When selecting program services and activities,
LEAs should determine how their selections are going to meet their needs and satisfy their
goals and objectives.




                                                                                     Page -17-
Recommendation

We recommend that the Assistant Secretary for OESE:

Ø      Consider during deliberations on reauthorization changes to the Act to incorporate
       provisions that will require LEAs to include in their application, a comprehensive
       plan with a detailed description of SDFS program services and activities. This plan
       should be aligned with the LEAs’ measurable goals and objectives and include
       milestones.


Department’s Comments

The Department responded that the SDFSCA currently requires that LEA applications for
program funds include a detailed explanation of the LEA's comprehensive plan for drug
and violence prevention, including information about how SDFSCA funds will be used
(Section 4115(b)(2) of the SDFSCA).


States’ Comments

New Jersey agreed with this recommendation, commenting that linking activities to
assessed needs is a problem with some districts in New Jersey. New Jersey indicated
they will complete a modification of their consolidated IASA application by February 1,
1999. They further stated that the relationship between the needs assessment, goals and
objectives, and activities as described in the Principles of Effectiveness will be stressed.
Technical support to districts on this and related points in the IASA application will also be
delivered by June 30, 1999.

New York agreed with the recommendation relating to this finding. They stated that while
there is a provision in the statute which allows for an LEA to submit a comprehensive plan
for drug and violence prevention as part of its application, it does not contain the specific
elements cited in the recommendation or alignment with the Principles of Effectiveness.

Texas commented that an LEA's comprehensive drug use and violence prevention
program should be aligned with their measurable goals and objectives and include
milestones. However, if the SDFSCA activities in the LEA application are required to be too
specific, they were concerned that the LEA would lose the flexibility needed to successfully
implement their program in a timely manner.

Texas also stated that the Texas LEA application for SDFSCA contains the LEA's
comprehensive plan for drug and violence prevention. (See Attachment 1 for Texas’
Management Comment Letter.)

                                                                                     Page -18-
Texas further wrote that in an effort to ensure that the LEA's comprehensive plan activities
align with LEA program goals, objectives, and activities, the Texas application will be
revised to specifically reflect an alignment between the LEA's program activities, needs
assessment, and the Principles of Effectiveness. They stated that it should be noted that
in addition to the application for funds, LEAs are currently required to identify specific drug
prevention and violence prevention goals in the Safe and Drug-Free Schools and
Communities Annual Evaluation Report.

Alabama submitted no written comments.


OIG Response

Although the Act requires the LEAs’ application to have a comprehensive plan, we believe
that the plan should contain specific information about the LEAs’ activities and services.
Also, the Act should require that the plan be aligned with the LEAs’ measurable goals and
objectives.

Texas’ response indicates that they may have misunderstood it. The recommendation will
not change the LEAs' flexibility to select and change SDFS program activities and services.

While the Texas LEA application has items indicated in its management’s comments, it
does not appear to link the LEA plan to its goals and objectives. The focus of our
recommendation was for LEAs to develop a strategy for accomplishing their measurable
goals and objectives. Having a comprehensive plan that identifies activities and services
and is linked to the LEAs’ goals and objective will provide a more effective foundation for
them to accomplish their goals and objectives. The OIG believes that the Assistant
Secretary of OESE should consider the recommendation during reauthorization. At the
same time, the Assistant Secretary of OESE should be aware of Texas’ concerns
regarding this recommendation.




                                                                                      Page -19-
         LEAs Should Be Accountable for Greatest Need Funding



States must allocate at least 91 percent of the SDFS funds they receive to LEAs. Of this
total, 70 percent is allocated based on enrollment, and 30 percent based on greatest need.
(Appendix A includes a summary of this data for the States and LEAs visited.) The
SDFSCA requires that greatest need funds be distributed to LEAs based on objective data
such as high rates of alcohol or drug use among young people, and high rates of
victimization of youth by violence and crime. At the four States visited, we found that
States appeared to be using appropriate methodology and objective data to allocate
greatest need money to LEAs. However, the SDFSCA does not require LEAs to plan or
report on the use or impact of greatest need funds. As a result, information on the impact
of greatest need dollars is not available. Further, without this information, States cannot
base decisions on continued greatest need funding of districts based on performance.


                              The four States reviewed, used appropriate, objective data
    States are Properly       to determine which LEAs had greatest need. Listed below
    Allocating Greatest       are the methodologies:
        Need Funds


‘      Texas used data on incidents of drug abuse and violence reported by LEAs. It
       computed a rate of incidents for each LEA. The State ranked LEAs in order of their
       rate of incidents, and determined a cut-off rate for urban, rural and other. LEAs
       selected (106) were then funded based on their relative enrollment.

‘      New Jersey initially used Title I criteria (poverty) to select the top 10 percent (62
       LEAs) in school year 1996-97. Funds were then allocated based on the LEA’s
       relative share of Title I funds. In the subsequent year (1997-98), the State planned
       to modify the formula to include the number of incidents of violence and substance
       abuse reported during school year 1995-96.

‘      Alabama sent out a questionnaire to LEAs, requesting reliable, statistical data on
       drug abuse and violence. The State ranked LEAs based on statistical data
       submitted; and the top 10 percent (12 LEAs), received greatest need funding. The
       funds were allocated based on relative share of Title I funds and school-aged
       population.

‘      New York contracted with a consulting firm to develop its greatest need
       methodology. Using risk-indicator data from districts and counties, the State ranked
       LEAs, and identified the top 10 percent to receive greatest need funding (75 LEAs).
       Funds were distributed based on relative enrollment.

                                                                                   Page -20-
                            The SDFSCA does not require LEAs to plan or report
 LEAs are not Required      separately for greatest need funds. Our review of nine LEAs
    to Plan or Report       receiving greatest need funds indicated that most did not
      Separately for        plan for the specific use of these funds. We found that
  Greatest Need Funds       eight of these LEAs spent the greatest need funds in the
                            same way as the regular SDFS, enrollment-based funds,
and one LEA targeted the greatest need funds to at-risk students.

The eight LEAs that did not distinguish their greatest need funds from regular SDFS funds,
did not plan specifically for spending these funds. The greatest need funds were used to
expand the services that were provided by using the regular SDFS funds. The LEA that
targeted the greatest need funds to at-risk students, determined that its eighth and ninth
grade students were most at-risk, and spent its greatest need funds providing direct
services to this group. This LEA, in New York State, said it had decided, without State
guidance, to plan for greatest need funds separately. None of the four States we visited,
provided guidance to the LEAs as to how the greatest need funds were to be spent.

Two of the LEAs in Alabama said the greatest need allocation process made it difficult to
plan for spending these funds. They said their State did not advise its LEAs about 1996-97
greatest need allocations until April 1997. This was too late in the school year for them to
effectively spend the money and therefore, the funds had to be carried over into the next
school year. The State said the complexity of the process caused the delay. We noted that
Alabama’s 1997-98 allocations were made earlier in the school year. During our visit, one
of the LEAs suggested to us that greatest need funding should be made available for a
multi-year period to allow for more effective planning.

LEAs did not report to the States or ED as to how greatest need funds were spent or their
effectiveness. The SDFSCA did not require any specific reporting concerning the greatest
need funds. Similarly, the four States we visited did not require any specific reporting of
greatest need funds.

However, the Act does list nine criteria for States to use in determining which LEAs are
greatest need. In our opinion, States should ensure that LEAs receiving greatest need
funds are addressing the criteria that caused them to be identified and funded as greatest
need.

LEAs should also be held accountable for achieving results in return for the greatest need
funding. It should be noted that greatest need funds received by districts we visited was
significant in relation to the regular SDFS funds received (See Appendix A). In some
cases, the LEAs' greatest need funding exceeds the regular funding. SDFSCA does not
specifically contain a provision to allow a State to reallocate a LEA’s greatest need funding
if it does not show progress.




                                                                                    Page -21-
Recommendations

We recommend that the Assistant Secretary of OESE consider during deliberations on
reauthorization changes to the Act:

Ø     To clarify that States can award greatest need funds for the same multi-year period
      as regular SDFS funds;

Ù     To permit States to consider LEAs' planned activities and the effectiveness of their
      completed activities, as a criterion in awarding greatest need funds; and

Ú     To permit States to consider the performance of LEAs receiving greatest need
      funds as a criterion for continued funding.


Department’s Comments

The Department did not respond to recommendations #2 and #3 of this finding. In
response to recommendation #1, they commented that the SDFSCA currently permits
States to award greatest need funding for the same period as "regular" SDFSCA funds
(See Section 4113(d)(2) of the SDFSCA).


States’ Comments

New Jersey indicated that they concurred with recommendation #1 and #3. In response
to recommendation #2 they concurred with the recommendation, but noted that New
Jersey’s awarding of greatest need funds methodology was changed in 1998-99. The four
outcome variables chosen were incidents of weapons use and violence, incidents of
substance abuse, school-based treatment referrals and community levels of juvenile
delinquency complaints. Eighteen explanatory variables were employed against each of
the four outcome variables. The explanatory variables covered education, health,
community socioeconomic status, and community levels of admission for drug treatment,
incidences of child abuse and neglect and domestic violence arrests. They stated that they
will update the data for the 1999-2000 formula.

New York agreed with all three recommendations, noting however that all three were
directed to the Assistant Secretary of OESE to consider during deliberations on
reauthorization. They indicated that the New York State Education Department will (1)
continue to award greatest need funds at the same time as regular SDFSCA funds; (2) as
of July 1, 1998 was awarding all SDFSCA funds, including greatest need funds based on
the Principles of Effectiveness; and (3) believed that recommendation #3 of this Finding
might assist SEAs to strengthen LEA accountability.


                                                                                 Page -22-
Texas made no comments in regards to recommendations #2 and #3. In regards to
recommendation #1, they commented that all LEAs have needs related to the prevention
of drug use and violence. Therefore, by eliminating the 30 percent set-aside and
distributing funds based on enrollment, it was their opinion that a more equitable formula
would be achieved.

Alabama submitted no written comments.


OIG Response

While the Act does not prohibit SEAs from awarding greatest need funds for multiple-years,
we believe that it is unclear. The Act needs clarification regarding the frequency of LEA
applications for greatest needs. The uncertainty of this provision was evident in the draft
report comments received from the SEAs on this recommendation. It is the OIG’s opinion
that the Department needs to clarify this provision and encourage its use.




                               OTHER MATTERS

                               One LEA we visited, budgeted $125,000 of school year
  Inappropriate Use of         1997-98 SDFS greatest need funds (funds were not within
    SDFS Money for             the scope of the audit period) for court ordered
     Desegregation             desegregation training. The district’s rationale for use of the
        Training               greatest need funding was that the court order created the
                               need. A review of the training program disclosed that its
                               objective was to change teachers’ attitudes about student
learning. The statute requires that SDFS funds be used to establish, operate, and improve
local programs of school drug and violence prevention, early intervention, rehabilitation
referral, and education in elementary and secondary schools. Expenditure of the SDFS
funds for court ordered desegregation is not consistent with the intent of the Act to prevent
drugs and violence in the schools. We advised district officials and they agreed that using
the funds may not be appropriate and stated that funds would be reprogrammed for SDFS
program services and activities. The State was notified and agreed to monitor the
expenditure of the district’s SDFS funds.




                                                                                     Page -23-
Recommendation

We recommend that the Assistant Secretary of OESE:

Ø      Monitor the expenditure of the LEA that received the $125,000 in SDFS greatest
       need funds for school year 1997/98.


Department’s Comments

The Department stated that because the SDFSCA State Grants Program is a "state-
administered" activity, the Assistant Secretary will work with the appropriate SEA to gather
additional information about this issue and determine if corrective action is required.


States’ Comments

Texas stated that the LEA was contacted on the inappropriate use of these funds.
According to the SEA, the LEA responded with an amendment to their SDFSCA
application and re-directed these funds to allowable drug prevention and violence
prevention activities based on the needs identified in the district's Safe and Drug-Free
Schools and Communities Annual Evaluation Report. The State indicated that they will
continue to monitor the LEA on this matter.



                                Many districts found it difficult and burdensome to identify
       Sharing Best             activities that would properly address their needs.
        Practices               Discussions with State program coordinators indicated that
                                they were aware that some LEAs were having successes
                                and were considered model programs. However, this
information was not shared with other LEAs. In order to obtain information on activities,
LEAs found themselves needing to use SDFS funds or district resources to search for
activities. States visited were providing assistance to LEAs in the form of development and
dissemination of drug and violence prevention material, including video-based projects and
model curricula. We believe the States should do more to relieve the added burden LEAs
encounter to research and identify SDFS services and activities. One New Jersey LEA
suggested that the State identify LEAs with similar district characteristics and publicize best
practices and model programs information on the Internet.

The Department has developed the Principles of Effectiveness which took effect July 1,
1998. Principle III requires LEAs to have activities which are researched-based. The use
of research-based activities will help ensure that LEAs have effective SDFS activities.




                                                                                      Page -24-
                                  BACKGROUND


The President signed into law on October 20, 1994 the Improving America's Schools Act
(IASA) of 1994, Public Law 103-382, which reauthorized the Elementary and Secondary
Education Act of 1965 (ESEA). The IASA's primary purpose was to improve the teaching
and learning of all children, and in particular those in high-poverty schools, to enable them
to meet challenging academic content and performance standards. The IASA encourages
systematic educational reform that will ensure that all children acquire the knowledge and
skills they will need in the 21st century.

Title IV of the ESEA ( the SDFS program) is a critical part of the National systematic reform
effort. The purpose of this program was to support other programs by preventing violence
in and around schools and by strengthening programs that prevent the illegal use of
alcohol, tobacco, and drugs, involve parents, and are coordinated with related Federal,
State, and community efforts and resources.

SDFSCA offers States, school districts, schools, and other recipients wide latitude in using
SDFS State and Local Grants Program funds to implement the kinds of drug and violence
prevention programs that they believe best serve their needs. As part of its effort to
increase accountability, the Department of Education developed the Principles of
Effectiveness which became effective July 1, 1998. The four Principles of Effectiveness
provide guidance to grant recipients on conducting needs assessments, setting
measurable goals and objectives, designing and implementing effective research-based
programs, and program evaluation. Accountability plays a critical role in balancing the
potentially conflicting objectives of increasing State and local flexibility and the attainment
of certain national objectives.

Congress authorized and appropriated $465,981,000 during school year 1996-97. ED sets
aside discretionary funds (or SDFS legislated funds) prior to making allocations to States.
Then, of the remaining funds (after legislated set aside), 80 percent are provided to State
educational agencies for drug and violence prevention activities. The other 20 percent are
provided to the Governors' offices for drug and violence prevention activities. (The SDFS
Governors' Program and SDFS legislated set asides were not covered by this review.)

ED uses the formula provided in section 4011(b) of SDFSCA - State Allotments to
determine how funds are allocated to the States. Only a State's relative share of school-
aged population and its relative share of Title I funds are used to calculate a State's
allocation. The only exception to this formula is provided for “small States”. This exception
ensures that no State will receive less than one-half of one percent of the total amount
allocated to all States.

The State educational agencies are permitted to use not more than four percent of their
allocation for State administration costs and not more than five percent can be withheld for

                                                                                      Page -25-
State level activities. A State educational agency shall distribute not less than the
remaining 91 percent of the allocation for each fiscal year to LEAs. Seventy (70) percent
of these funds are distributed to LEAs based on the relative enrollments and 30 percent
to LEAs that the State educational agency determines has the greatest need for additional
funds to carry out drug and violence prevention programs. According to the Act, an SEA
could not distribute greatest need funds to more than 10 percent of the LEAs in the State
or five such LEAs, whichever is greater.




                    SCOPE AND METHODOLOGY


The purpose of this audit was to provide information which would be useful to ED and
Congress during the 1999 reauthorization of the SDFS program. Our audit included only
the SDFS funds allocated to State and local educational agencies. Our scope did not
include the SDFS Governors' Program or SDFS legislated set asides. The objectives of
our audit were:

‘               To review the States' and LEAs' processes for developing measurable
                goals and objectives and to determine if it meets Federal statutes;

‘               To determine how SDFS funds are allocated from States to LEAs and
                schools and if expenditures are supported and consistent with the plan;

‘               To determine if there is an administrative burden on State and local
                districts applying for and operating the program and if it can be reduced;
                and

‘               To ensure that the States' greatest need methodologies are consistent
                with program objectives.

Our audit period covered school year 1996-97. The four States we audited, received
$66,836,958 of the $344,223,534 in school year 1996-97 SDFSCA appropriations. This
represented 19 percent of the total allocation.

In order to accomplish our objectives, we conducted site visits at the Federal program
office, the State educational agencies, and the LEAs for the States selected. We
interviewed school officials responsible for the administration of the programs. We also
reviewed accounting records, written policies, procedures, guidelines, and applications.
Our fieldwork was performed between November 1997 and June 1998. Our audit was
performed in accordance with government auditing standards appropriate to the scope of
the review described above.


                                                                                 Page -26-
The sampling program we used, involved the random selection of six State educational
agencies based on Safe and Drug-Free funding levels. We stratified the 50 States, D.C.,
and Puerto Rico into three strata based on annual SDFS funding: over $20 million; $9
million to $20 million; and under $9 million. We randomly selected two States from each
stratum. After the first four States were completed, we decided to limit the scope of our
audit to those four States (New Jersey, New York, Texas, and Alabama). Within each of
the four States, the LEAs were stratified into three strata: over $200,000; $10,000 to
$200,000; and under $10,000. We randomly selected six LEAs from each State, two within
each of the three strata. However, in New Jersey we substituted four LEAs receiving under
$10,000 in SDFS funding for one medium and one large LEA.




        STATEMENT ON MANAGEMENT CONTROLS



As part of our audit, we assessed the agencies' management control structure, policies,
procedures, and practices applicable to the administration of the SDFS program at the
Federal program office and the four States reviewed. The purpose of our assessment was
to evaluate the level of control risk for determining the nature, extent, and timing of our
substantive tests to accomplish our objectives. We assessed and classified the significant
controls for the IASA, Title IV into the following categories:

‘               Review and approval of the State consolidated application and plan;

‘               Review and approval of the LEA application and plan;

‘               Records management;

‘               Allocating of grant funds; and

‘               Expenditures.

Because of inherent limitations, a study and evaluation made for the limited purposes
described above would not necessarily disclose all weaknesses in the agencies' control
structure. However, we identified weaknesses and recommended improvements. These
weaknesses and their effects are fully described in the Audit Results section of this report.




                                                                                    Page -27-
Appendix A: Summary Chart for States and LEAs Visited

                                                                                                  Are LEAs      Do Educational         Do Educational                            Do Educational Agencies
                                                                                   Greatest      Conducting     Agencies Have          Agencies Have              Type of            Use Performance              Type of
SITE NO.            DISTRICT LOCATION                 SIZE        SDFSCA             Needs         Needs       Measurable Goals/   Performance Indicators?      Indicators?             Indicators              Application?
                                                                 Allocations      Allocations   Assessment?      Objectives?             (YES or NO)           (Outcome or             To Measure
                                                                     (1)                             (3)              (4)                    (4)                  Output)       Program Effectiveness? (5)
   1                  New Jersey SEA                Medium          $5,144,291     $2,204,696                          YES                   YES                Outcome                    YES                  Consolidated
   2           Hopewell Valley Regional LEA         Medium             $11,142                      YES                YES                   YES                 Output                    NO                   Consolidated
   3            Morris-Union Jointure LEA            Small               $541                       YES                YES                   YES                Outcome                    YES                  Consolidated
   4                   Paterson LEA                  Large           $128,378       $127,764        YES                YES                   YES                 Output                    NO                   Consolidated
   5               Haddon Heights LEA                Small              $6,251                      YES                YES                   YES                Outcome                    NO                   Consolidated
   6           Blairstown Township LEA (2)           Small              $4,104                      YES                YES                   YES                 Output                    NO                   Consolidated
   7              Andover Regional LEA               Small              $2,341                      YES                YES                   YES                 Output                    NO                   Consolidated
   8             Stanhope Borough LEA                Small              $1,391                      YES                YES                   YES             Outcome/Output                NO                   Consolidated
   9                  Wallington LEA                 Small              $5,210                      YES                YES                   YES                 Output                    NO                   Consolidated
LEA Total                                                            $159,358       $127,764
   10                  New York SEA                  Large         $16,464,386     $7,056,165                          YES                   YES                 Outcome                   YES                  Consolidated
   11               Sauquoit Valley LEA              Small              $7,798                      YES                YES                   NO                   NONE                     NO                   Consolidated
   12               Jordan Elbridge LEA              Small              $9,828                      YES                YES                   YES                  Output                   NO                   Consolidated
   13                Niagara Falls LEA              Medium             $52,556        $46,157       YES                YES                   YES                 Outcome                   YES                  Consolidated
   14                 Rochester LEA                  Large           $208,757       $183,342        YES                YES                   YES                  Output                   NO                   Consolidated
   15                New York City LEA               Large          $6,512,919     $5,441,532       YES                YES                   YES                 Outcome                  NO (6)                Consolidated
   16                   Hudson LEA                  Medium             $28,171        $11,828       YES                YES                   YES                 Outcome                   YES                  Consolidated
LEA Total                                                           $6,820,029     $5,682,859
   17                   Texas SEA                    Large         $17,293,683     $7,411,578                          YES                   YES                 Outcome                   YES                  Consolidated
   18                   Vernon LEA                  Medium             $12,220                      YES                YES                   YES                 Outcome                   YES                Program Specific
   19                Wichita Falls LEA              Medium             $73,387                      YES                YES                   YES                 Outcome                   YES                Program Specific
   20                Columbus LEA (2)               Medium              $8,251        $14,441       YES                YES                   YES                 Outcome                  YES (7)             Program Specific
   21                 Goree LEA (2)                  Small               $347                       YES                YES                   YES                 Outcome                  YES (7)             Program Specific
   22                 Beaumont LEA                   Large           $103,300       $181,004        YES                YES                   YES                 Outcome                   YES                Program Specific
   23                Vysehrad LEA (2)                Small               $350                       YES                YES                   YES                 Outcome                  YES (7)             Program Specific
LEA Total                                                            $197,855       $195,445
   24                  Alabama SEA                   Small          $3,672,783     $1,574,050                          YES                   YES                 Outcome                   YES                  Consolidated
   25                 Birmingham LEA                 Large           $214,821       $294,291        YES                YES                   YES                 Output                    NO                   Consolidated
   26                    Mobile LEA                  Large           $360,694       $494,128        YES                YES                   YES                 Output                    NO                   Consolidated
   27                   Winfield LEA                 Small              $6,977                      YES                YES                   YES                 Output                    NO                   Consolidated
   28                  Sheffield LEA                 Small              $7,849                      YES                NO                    NO                   NONE                     NO                   Consolidated
   29                    Blount LEA                 Medium             $31,340                      YES                YES                   YES                 Output                    NO                   Consolidated
   30                   Calhoun LEA                 Medium             $50,498                      YES                YES                   YES                 Output                    NO                   Consolidated
LEA Total                                                            $672,179       $788,419


            (1) For SEA SDFSCA allocations, the figures do not include 4% Administration and 5% Discretionary Funds                (5) Incorporated into Principles of Effectiveness, Principle #4: Program Evaluation
            (2) Participates in a consortium.                                                                                      (6) Some Community School Districts have them, but it is not documented whether they are using them.
            (3) Incorporated into Principles of Effectiveness, Principle #1: Conducting Needs Assessments                          (7) Part of a cooperative, submits data to Regional Education Service Centers for consolidation
            (4) Incorporated into Principles of Effectiveness, Principle #2: Setting Measurable Goals and Objectives
Appendix B: Summary Chart of States and LEA Activities & Services Funded by SDFS Program


                                                                        SEA and LEA Activities and Services




                                                                                                                                                                                                                            grams
                                                                                                uction




                                                                                                                                                                                         ms




                                                                                                                                                                                                                                                                          es
                                                                                                                                                                                                           ts
                                                                 n




                                                                                                                                  ices
                                                              tructio




                                                                                                                                                                                                                                                                        Servic
                                                                                                                  ents




                                                                                                                                                                                                       Projec
                                                                                                                                                                                     l Progra




                                                                                                                                                                                                                                             t
                                                                                                                                                                   lution




                                                                                                                                                                                                                         on Pro




                                                                                                                                                                                                                                                      onnel
                                                                                              n Instr
 S




                                                                                                                                                                                                                                        ipmen
                                                                                                                                                      tion
                                                                                                                             ort Serv
                                                                                                              ime Ev
                                                                           raining
 I




                                                          on Ins




                                                                                                                                           ulum




                                                                                                                                                                                                                                                                   l Youth
                                                                                                                                                                                                   ervice
                                                                                                                                                    Instruc




                                                                                                                                                                                Schoo




                                                                                                                                                                                                                                                   ty Pers
                                                                                                                                                                 t Reso
 T




                                                                                                                                                                                                                                                                                 Other
                                                                                         ventio




                                                                                                                                                                                                                                      ty Equ
                                                                                                                                                                                                                     ducati
                                                                                                           l One-T
 E               DISTRICT LOCATION




                                                                                                                           t Supp




                                                                                                                                         Curric
                                                       reventi




                                                                         Staff T




                                                                                                                                                                                                 unity S




                                                                                                                                                                                                                                                                Schoo
                                                                                                                                                  Parent




                                                                                                                                                              Conflic




                                                                                                                                                                              /After




                                                                                                                                                                                                                                                 Securi
                                                                                       ce-Pre




                                                                                                                                                                                                                  ative E




                                                                                                                                                                                                                                    Securi
 N




                                                                                                                         Studen
                                                                                                         Specia
                                                     Drug-P
 O




                                                                                                                                                                                                Comm




                                                                                                                                                                                                                                                              Out-of-
                                                                                                                                                                            Before
                                                                                     Violen




                                                                                                                                                                                                                Altern
 1                 New Jersey SEA                                           X                                                 X            X                                                                                                                                     X
 2           Hopewell Valley Regional LEA                 X                 X                 X                               X
 3            Morris-Union Jointure LEA                                                                                                    X
 4                   Paterson LEA                         X                 X                 X               X               X            X         X                                                                                                                           X
 5               Haddon Heights LEA                       X                 X                                                 X            X                                         X
 6            Blairstown Township LEA                                                                                                      X
 7              Andover Regional LEA                      X                                                                   X            X
 8             Stanhope Borough LEA                                                                                           X
 9                  Wallington LEA                                                                            X               X
 10                 New York SEA                                                                                                           X                                                                                                                                     X
 11                 Sauquoit Valley                       X                                                                   X            X                                         X
 12                Jordan Elbridge                        X                 X                 X               X                            X
 13                  Niagara Falls                        X                 X                 X                               X            X                      X
 14                    Rochester                          X                                   X               X                                                   X
 15                 New York City                         X                 X                 X                               X            X                                         X
 16                     Hudson                            X                 X                                                 X            X                                         X                                                                                           X
 17                   Texas SEA                                                                               X                                                                                                                                                                  X
 18                Vernon ISD LEA                         X                 X                                                 X            X
 19             Wichita Falls ISD LEA                     X                 X                                                 X            X                                                                                                                                     X
 20               Columbus ISD LEA                        X                 X                 X                               X                                   X                                                                                                              X
 21                 Goree ISD LEA                         X                                   X
 22               Beaumont ISD LEA                        X                 X                 X                               X
 23               Vysehrad ISD LEA                        X
 24                  Alabama SEA                          X                 X                 X                               X                      X                                                                                                                           X
 25                   Birmingham                          X                                   X                               X
 26                      Mobile                           X                                   X                               X                                                      X
 27                     Winfield                          X                                                                   X
 28                    Sheffield                                                                                                                                                                                         X
 29                      Blount                           X                                                                   X
 30                     Calhoun                           X                 X                 X                               X            X
      This chart represent States and LEA activities & services verified during our on-site work.
                ATTACHMENT 1



       U.S. Department of Education / OESE;
       New Jersey Department of Education;
      New York Department of Education; and
          Texas Department of Education

             Management’s Comments to
Safe and Drug-Free Schools: Increasing Accountability
       and Preserving Flexibility Audit Findings

       ED AUDIT CONTROL NO. 03-80001




                                                    Page -30-
                   FINAL REPORT DISTRIBUTION SCHEDULE
                                    Control No.03-80001
                                                            No. of
                                                            Copies

Auditee

       Honorable Ed Richardson                                1
       State Superintendent of Education
       Alabama Department of Education
       50 Ripley Street, Room 5114
       Montgomery, Alabama 36104

       Honorable Leo Klagholz                                 1
       Commissioner
       State of New Jersey
       Department of Education
       100 Riverview Plaza
       Trenton, New Jersey 08625

       Honorable Richard P. Mills                            1
       Commissioner of Education
       New York State Department of Education
       89 Washington Avenue, Room 111
       Albany, New York 12234

       Honorable Mike Moses                                  1
       Commissioner of Education
       Texas Department of Education
       1701 N. Congress
       Austin, Texas 78701

Action Official

       Dr. Gerald N. Tirozzi, Assistant Secretary of OLSE    1
       Office of Elementary and Secondary Education
       400 Maryland Avenue, SW
       Suite 3W300
       Washington, D.C. 20208

Other ED Offices

       Office of General Counsel                             1
Office of Inspector General

       Inspector General (Acting)                                  1
       Deputy Inspector General (Acting)                           1
       Assistant Inspector General for Audit (Acting)              1
       Assistant Inspector General for Operations - Eastern Area   1
       Assistant Inspector General for Operations - Western Area   1
       Counsel to the Inspector General                            1
       Director, Elementary and Secondary Education Advisory &
          Assistance Staff                                         1
       Area Managers                                               1 each
        OIG AUDIT TEAM

            Audit Staff:

     Steve Eisenberg, Auditor
       Kevin Talley, Auditor
        Jim Cozart, Auditor
    Marchelle Williams, Auditor
    Francis A. Maguire, Auditor
Bernard Tadley, Area Audit Manager


   Information Technology Staff:

  Zachary T. Sudiak, EDP Auditor


     Advice & Assistance Staff:

        Rich Rasa, Director
      Scott Johnston, Auditor
